aftBB
No.

/>T'

ee»

&

imi

IN THE

SUPREME COURT OF THE.UNITED STATES

filed
AUG 3 0 2021

<$>

Jay Warren Arnold, pro se,
TDCJ No. 2061090 f
Petitioner,
v.
BOBBY LUMPKIN, Director,
Texas Department Of Criminal Justice,
Correctional Institutions Division,
Respondent.
<•>

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit
<2>
PETITION FOR WRIT OF CERTIORARI
<•>

Jay Warren Arnold
Beto Unit #2061090
1391 FM 3328
Tenn.Col. Tx. 75800

• in pro se <3> in gravitas •

QUESTION(s) PRESENTED
The Fifth Circuit Court of Appeals has denied a COA in this Cause by
applying Slack v. McDaniel, 529 U.S. 473, 484 (2000)

in a vague and

conclusory manner which circumvents the required threshold procedural
inquiry and carefully avoids material evidence.
1. Under a de novo review standard

if an indigent prisoner proceeds on

appeal under Fed.R.App.P. 24(a)(3),
Original Record under Rule 24(c),

and requests leave to use the
is the incorporation by reference

to the constitutional pleadings made in the district court adequate
to state a valid claim of the denial of a constitutional right?

Or

is it otherwise acceptable to "reproduc[e]" the valid constitutional
claims in a Rule 40 petition for panel rehearing?
2. Did the Court of Appeals err in refusing to issue a COA regarding
statutory or equitable tolling, where the District Court's denial
overlooked every fact affirming diligence and relied entirely upon
a complete failure to acknowledge the presentation of evidence which
conclusively demonstrates that the pro se litigant had been actively
misled by a court into pursuing an other State collateral "review"
to a higher court, which would otherwise have never been pursued?
3. Does the "narrow exception" recognized in Trevino v. Thaler, 569
U.S. 413 (2013)

suggest that "extra-ordinary circumstances" may

exist in Texas which per se satisfy the second prong of Pace v.
DiGuglielmo, 544 U.S. 408 (2005)?

Or does closer inspection of

the structurally deficient circumstances which persist in the wake
of Trevino justify further corrective measures, such as holding
the State of Texas to have electively disentitled themselves from
asserting affirmative defenses in federal habeas proceedings?

i

LIST OF PARTIES
The names of all parties appear in the caption of the case on the
cover page.

RELATED CASES
Arnold v. State , No. 10-18-00055-CR, 2018 WL 1004880 (Tex.App.Waco , Feb.. 21, 2018, pdr ref'd)(0n other State collateral review)

Ex parte Arnold, 2013-8-C2A, WR-88,555-01 (TCCA July 18, 2018, dsm'd,
reh'g den., Aug. 10, 2018)(0n initial State post-conviction review)

Ex parte Arnold, 2013-8-C2B, WR-88,555-02 (TCCA Mar. 27, 2019, den.,
reh'g dsm'd, May 15, 2019)(Subsequent post-conviction review)

Arnold v. Davis, No. 6:19-CV-00332 (W.D. Tex., Waco Division,
May 28, 2020)(28 U.S.C. §§ 2241, 2254, dsm'd, COA den.)

Arnold v. Lumpkin, No. 20-50469 (5th Cir. Mar. 16, 2021)(COA den.)

Arnold v. Lumpkin, No. 20-50469 (5th Cir. Apr. 08, 2021)(reh’g den.)

ii

TABLE OF CONTENTS
Page
i

Questions Presented
List of Parties and Related Cases

ii

Index of Appendicies .

iv

Table of Authorities .

v

Opinions Below and Jurisdiction

1

Federal Provisions Involved

2

Statement of the Case

3

Reasons For Granting Review

6

1. The Court of Appeals’ implicit holding in this
Cause decides an important question of federal
law pertaining to indigent pro se litigants
which conflicts with sub silentio Circuit precident applied to attorney filings and deserves
to be settled by this Court ....

7

2. The Court of Appeals has sanctioned the District
Court's departure from the accepted and usual
course of judicial proceedings by refusing to
acknowledge or consider material facts and
evidence weighing in the Petitioner’s favor .

12

3. Texas'i refusal to correct their structurally
deficient scheme in the wake of Trevino is a
compounding problem which greatly affects
indigent prisoners and justifies further
corrective measures be taken by this Court

22
26

Conclusion .

iii

INDEX OF APPENDICIES
Page
Appendix A: Opinion, United States Court of Appeals
for the Fifth Circuit (Mar. 16, 2021) .

la

Appendix B: Opinion, United States District Court
for the Western District of Texas,
Waco Division (May 28, 2020)

3a

Appendix C: Opinion on Rehearing, United States Court of
Appeals for the Fifth Circuit (Apr. 08, 2021)

13a

Appendix D: Opinion Inducing Other State Collateral Review,
Waco Tenth Court of Appeals (Feb. 21, 2018)

14a

Appendix E: Letter from Clerk, United States Court of
Appeals for the Fifth Circuit (June 25, 2020)

17a

iv

TABLE OF AUTHORITIES
Federal Cases:

Page(s)

Artuz v. Bennett, 531 U.S. 4 (2000)

13

Bagwell v. Dretke > 376 F.3d 408 (5th Cir. 2004)

. 8-10

Buck v. Davis, 137 S.Ct. 759 (2017)

12, 17

Coleman v. Johnson f 184 F.3d 398 (5th Cir. 1999)
Duncan v. Walker, 533 U.S. 167 (2001) .

20
8, 13-15
8

Dye v. Hofbauer, 546 U.S. 1 (2005)
Emerson v. Johnson, 243 F.3d 931 (5th Cir. 2001)

15-16

Haines v. Kerner, 404 U.S. 519 (1972) .

12

Hancock v. Davis, 906 F.3d 387 (5th Cir. 2018).
Holland v. Florida, 560 U.S. 631 (2010)

8
12, 18, 20

Hutson v. Quarterman, 508 F.3d 236 (5th Cir. 2007)

16
9

Lonchar v. Thomas, 517 U.S. 314 (1996).
Martinez v. Ryan, 566 U.S. 1 (2012)

6, 22, 25

Miller-El v. Cockrell, 537 U.S. 322 (2003).

12, 17
18

Pace v. DiGuglielmo, 544 U.S. 408 (2005)

7,> 10-12

Slack v. McDaniel, 529 U.S. 473 (2000)

23

Strickland v. Washington, 466 U.S. 668 (1984) .
Trevino v. Thaler, 569 U.S. 413 (2013).

passim

United States v. Bagley, 473 U.S. 667 (1985)

23

United States v. Qazi, 975 F.3d 989 (9th Cir. 2020)

12

Wall v. Kholi,> 131 S.Ct. 1278 (2011)

.

12-15, 17

State Cases:
Arnold v. State, 2018 WL 1004880 (Tex.App.- Waco,f Feb. 21, 2018)
(with 7 distinguishing Unpublished Opinions)

19

Ex parte Baker, 185 SW 3d 894 (TCCA 2006) .

16

Ex parte Tuley, 109 SW 3d 388 (TCCA 2002) .

16

v

State Cases

Page(s)

cnt:

Hillman v. Neuces Cty. Tex. and Neuces Cty. DA’s Office,
579 SW 3d 354 (Tex. 2019) .

24

In re Garcia, 486 SW 3d 565 (TCCA 2016)

24

Federal Statutes And Rules
5
12
6
passim
5
6, 22, 26
6, 23-24
23, 26

28 U.S.C. § 2241 .
§ 2244(d)
(d)(1)
(d)(2)
§ 2254 .
2254(b)(1)(A) .
(b)(l)(B)(ii)
28 fo1. § 2254, Rule 5(b) .

8
7, 10
8
8
passim
8

Fed.R.App.P. 22(b)
24(c)
28(e)
30(f)
40
Fed.R.Civ.P. 10(c)

8

S.Ct.R. 12.7
State Statutes And Rules:

15
15-16
16
16

Texas Code of Criminal Procedure > Art. 1.051(d)
11.07 .
64.01 .
Tex.R.App.P. 79.2(d)
Constitution:

6

Constitution of the United States of America, Art. 1, Sec. 9
Other:
Bacon’s Abridgment, sect. 2

14-15

.......

Rory K. Schneider, Illiberal Construction of Pro Se Pleadings
159 U.Pa.L.Rev. 585 (2011)
........................................................
vi

5

12

OPINIONS BELOW
The Opinions of the Court of Appeals (App. la), the District Court
(App. 3a), and the Panel Rehearing (App. 13a), are all unpublished.

JURISDICTION
A Judge of the United States Court of Appeals denied a COA on March
16, 2021.

A subsequent panel denied rehearing on April 08, 2021.

This Court’s March 19, 2020 Standing Order extended the 90 day
filing deadline to 150 days, making the instant petition timely filed
on or before September 05, 2021.
executed on August

20

The attached Proof of Service was

, 2021.

The jurisdiction of this Court is invoked under 28 U.S.C. §§
1254(1), 1651(a).

1

FEDERAL PROVISIONS INVOLVED
Article 1, Section 9 of the Constitution of the United States of
America provides, in relevant part:
The Privilege of the Writ of Habeas Corpus shall not be
suspended, unless when in Cases of Rebellion or Invasion
the public Safety may require it.
The Antiterrorism and Effective Death Penalty Act of 1996, 28 U.S.C.
§ 2244(d), provides, in relevant part:
(1)(A) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a person in
custody pursuant to the judgement of a State court.
The limitations period shall run from ... the date on
which the judgement became final ...
(2) The time furing which a properly filed application
for State post-conviction or other collateral review with
respect to the pertinent judgement or claim is pending
shall not be counted toward any period of limitation
under this subsection.
Federal Rule of Appellate Procedure 24(c) provides, in relevant part:
A party allowed to proceed on appeal in forma pauperis may
request that the appeal be heard on the original record
without reproducing any part.
Federal Rule of Civil Procedure 10(c) provides, in relevant part:
A statement in a pleading may be adopted by reference elsewh­
ere in the same pleading or in any other pleading or motion.
Supreme Court Rule 12.7 provides, in relevant part:
In any document filed with this Court, a party may cite or
quote from the record, even if it has not been transmitted
to this Court.

2

STATEMENT OF THE CASE
This case involves a state court conviction of a first time offender
who was sentenced by jury to a 60-year aggravated life sentence (the
functional equivalent of a sentence to die in prison);

the most dis-

turbing of all facts being the Petitioner's 3 children who have lost
priceless and irreplacable years with their loving father.
Based upon diligent research, literal statutory interpretation,
and reasoned appraisal of the issues at bar, the Petitioner believes
this proceeding involves several issues of exceptional importance
which merit this Honorable Court exercising its supervisory powers.
A concise recitation of the facts material to the questions pre­
sented are as follows.
1. Trial And Direct Appeal: Counsel Forfeited All Substantial Claims
The Petitioner elected to assert his right to a jury trial as a
result of an unreasonable plea negotiation process, expecting to be
afforded a fair trial and an impartial jury.
In a lopsided 2016 "trial" conducted in the Central Texas County
of McLennan *s 54th Judicial District Court, which was littered with
habitual violations of the Constitution of the United States of
America, the only issue "preserved" and reviewed on direct appeal
hinged upon trial counsel's anemic objection:
"[W]e don't think that it's relevant to this
proceeding ...‘and under 403."^

Being indigent, the trial court appointed counsel to represent
the Petitioner on direct appeal.

Minimal information was exchanged.

1^ All facts stated in this petition are true and correct. Citations to the
official State trial record will be respectfully deferred until this Court
orders full briefing of the issues.
3

►

Four months post-trial, without any mention of a right to file a
motion for new trial, and after being notified of missing witnesses
and evidence, in a response letter dated "July 21, 2016", appointed
counsel informed the Petitioner that "the appellate court prohibits
me from introducing any evidence that was not made part of the record
at trial," and for his INDIGENT client to "feel free to hire the writ
counsel of [] choice" to pursue any other issues.
Counsel proceeded to file an utterly meaningless direct appeal
brief, which had no chance of success - in large part due to trial
counsel's failure to "preserve" any claims for review.
Petitioner filed a timely pro se petition to,, the Texas Supreme
Criminal Court of Appeals ("TCCA"), but, given the sole issue raised
on appeal, the PDR itself had no chance of success.

Any attempt to

petition to this Court for direct certiorari review would have been
futile and a complete waste of Judicial/Clerical resources.
2. State Post-Conviction And Other Collateral Review Proceedings
In September of 2017, with nearly 11 months of AEDPA tolling re­
maining, and to counterbalance trial and appellate counsel's fused
deficiencies, the Petitioner attempted to assert his State statutory
rights to post-conviction discovery•("at any time ... after trial"),
and indigent habeas counsel ("for purposes of filing an application
for a writ of habeas corpus, if an application has not been filed").
Both of those requests were ignored by the sitting habeas Judge.
The Petitioner has never asked for any of the initially filed
motions to be federally tolled;

only for the State court induced

"review" (discussed below) that would never have otherwise been pur­
sued in the absence of a misleading appellate court Opinion.

4

Although pertinent State caselaw strongly supports a contrary
holding, the disputed collateral ’’review” proceedings in this Cause
apparantly created a complete ("two-forum” trap) jurisdictional bar
which prevented the Petitioner's ability to exhaust State "remedies”
until after the other collateral review proceeding was closed.
The supposed two-forum bar was invoked by the State
citation to a single rule or law in support

without any

in their Answer to the

Petitioner’s otherwise timely filed initial protective State habeas
application (filed nearly 4 months prior to the AEDPA deadline).
At the State’s own behest (without ruling on a Motion to Stay the
otherwise timely filed protective State habeas application, pending
the outcome of the other State collateral review) the TCCA dismissed
the initial timely filed application without written order.
An Emergency Motion for Reconsideration and Stay was immediately
filed with the TCCA, but was Denied post-expiration of the AEDPA fil­
ing deadline.

Once the other State collateral review concluded, a

second State habeas application was filed, of which (in short):
•95% of the presented claims were ignored
•5% of the claims were misconstrued
•Motions for continuance and remand were ignored
•All attempts to expand the record were ignored
2254, the Petitioner executed his

Pursuant to 28 U.S.C. §§ 2241

federal habeas petition seven days after exhausting State "remedies".
Two noteworthy Facts regarding the State proceedings are that: 1)
her actors are fully aware of the existence of undisclosed material
evidence, yet remain in violation of their continued statutory duty
to disclose,

and 2) their affirmative defense asserted in the pro­

ceedings below was derived exclusively from their own unsupported
request to dismiss the initial protective State habeas application.
5

REASONS FOR GRANTING REVIEW
The Petitioner moves this Honorable Court to exercise its supervisory
power and provide much needed aid to indigent prisoners in Texas.
Equally applicable to every State in the Union, and premised upon
the notion that all States are playing by uniform rules, 28 U.S.C. §
2254(b)(1)(A) bars the grant of federal habeas corpus relief to any
prisoner in state custody who fails to first provide their respective
State an opportunity to fairly adjudicate constitutional violations.
A statutory exception to this general procedural requirement con­
templates that extraordinary "circumstances [may] exist that render
[a particular state's] process ineffective to protect the rights of
the applicant." Id., § 2254(b)(1)(B)(ii).
Such extraordinary circumstances have been held by this Court to
exist in Texas.

See Trevino v. Thaler, 569 U.S. 413 (2013)(recogniz-

ing "significant unfairness" in the Texas post-conviction procedural
scheme);

See also Martinez- v. Ryan, 566 U.S. 1 (2012)(holding such a

scheme to be "an equitable matter").
From a broad standpoint, the instant case presents several com­
pelling reasons why states such as Texas that continue to habitually
exploit the AEDPA to their undue advantage, and where such extraordi­
nary circumstances have been held to exist, should now be further
held to have electively disentitled themselves from the protective
federal shield of § 2244(d)(l)'s affirmative defense.
More narrowly, the proceedings below reflect a supposed "remedy"
that has revealed itself to be completely inadequate and ineffective
to protect the Petitioner's constitutional rights, and has thus far
resulted in a Complete Suspension of the Writ, in violation of Art.
1, Sec. 9 of the Constitution of the United States of America.
6

1. The Court Of Appeals Has Implicitly Decided An Important Question
Of Federal Law Pertaining To

Indigent Pro

Se Litigants Which

Conflicts With Sub Silentio Circuit Precident Applied To Attorney
Settled
This
Court
Be
By
Filings
And
Deserves
To
As a preliminary issue, due to the vague and conclusory manner
in which a COA was denied in this Cause, it must be presumed that the
Circuit Court determined that no valid claims of the denial of a constitutional right had been presented,

Citing Slack v. McDaniel

not made the requisite showing");
473, 484 (2000).

See Appx. A, at 2 ("Arnold has
529 U.S.

Although a timely Fed.R.App.P. 40 motion was filed

which accounted for and corrected the potential deficiency, the panel
on rehearing made no corrections to the vague holding.

See Appx. C.

Because the District Court also made no reference to the claims,
it must be further presumed that Court believed Slack’s first prong
had not been met.

See Appx. B, at 9-10.

However, brief inspection

of the Original Record reveals that 26 valid claims had been presen­
ted (5 fully briefed, making a substantial showing of the denial of
Petitioner's Sixth Amendment right to effective trial counsel).
a. Applicable Law And Related Holdings
There appears to be no rule or law prohibiting the initial show­
ing of a valid constitutional claim from either

1) being incorpora­

ted by reference to the district court pleadings in the initial COA
brief to the appellate court, or

2) being stated for the first time

on appeal in a Rule 40 petition for panel rehearing.
No responsive pleading was filed in, the Circuit Court, so there
was no opportunity to correct any potential deficiencies in a reply
brief prior to the Court's ruling.
Rule 24(c) specifies that "A party allowed to proceed on appeal
in forma pauperis may request that the appeal be heard on the orig7

inal record without reproducing any part.”

The Rule’s plain language

implies that a qualified party, whose habeas petition is denied on
procedural grounds, need not ”reproduc[e]" the constitutional claims
made in the district court.

See Duncan v. Walker, 533 U.S. 167, 174

(2001)(recognizing a court's duty to prevent statutory surplusage).
Such an interpretation is butressed by the ”de novo” review of
the record applicable to requests for a procedural only COA.

See

e.g., Hancock v. Davis, 906 F.3d 387, 389 (5th Cir. 2018)(habeas pet­
itions denied on procedural grounds invoke de novo review on appeal).
Other Appellate Rules lend additional support to this interpreta­
tion.

See e.g., Rule 28(e)(allowing ”refer[ence] to an unproduced

part of the record”);

Rule 30( f) (allowing courts to ’’dispense with

the appendix and permit an appeal to proceed on the original record”);
See also S.Ct.R. 12.7 ("In any document filed with this Court, a party
may cite or quote from the record, even if it has not been transmitt­
ed to this Court").
In Dye v. Hofbauer, 546 U.S. 1, 4 (2005), this Court held that a
federal habeas petition explicitly referencing external appended doc­
uments "incorporates those documents by reference";

citing Fed.R.Civ.

P. 10(c)("A statement in a pleading may be adopted by reference else­
where in the same pleading or in any.other pleading or motion").
To interpret Dye's holding to not extend to the COA stage would
potentially create statutory surplusage in Rule 10(c)’s "any other
pleading or motion" clause.

Proceedings under Appellate Rule 22(b)

must be held to relate to the proceeding under Civil Rule 10(c).
The only authority found which is squarely on point arose through
the pleadings of a prominent Texas attorney.

See Bagwell v. Dretke,

376 F.3d 408, 410 (5th Cir. 2004)(granting a COA to determine "whether

8

a petitioner who seeks to challenge a procedural dismissal of his
§ 2254 petition must state, in his COA application to the appellate
court, the constitutional claims he sought to raise in that petition
or

if the constitutional claims are not stated in the appellate COA

application, whether this Court may look to the pleadings filed in
the district court to determine if the proper 'showing

has been made

under Slack [] as to the merits of the constitutional claim").
The Bagwell Court provided little guidance on this issue because
Bagwell's attorney cured the potential deficiency prior to the Court
taking a position on the issue.

See Id.

("The State first argues

th[e] petition must be dismissed...Bagwell, however, has since filed
a motion seeking leave to amend his COA application, and the State
offers no persuasive reason why this motion should be denied").
A prime opportunity is now presented to this Court to answer the
important procedural question left unanswered in Bagwell as to whe­
ther the appellate court may look to the pleadings filed in the dis­
trict court in such a scenario, or alternatively in a Rule 40 motion.
Indeed, "given the importance of a first federal habeas petition,
it is particularly important that any rule that would deprive inmates
of all access to the writ should be both clear and fair."

Lonchar v.

Thomas, 517 U.S. 314, 330 (1996).
b. The Potential Deficiency In The Instant Cause Was Cured By The
Subsequent Filing
Of
A
Petition For Panel
Rehearing
Because no brief was filed by the Appellee in response to the
request for the issuance of a COA, the Petitioner was afforded no
opportunity to correct the potential deficiency in a reply brief
prior to the Court's ruling, thus making the Rule 40 petition the
first opportunity to correct the potential deficiency.
9

Had the panel at least acknowledged the pleadings in the Rule 40
petition it would be unnecessary to address this issue on certiorari.
However, the panel denied rehearing without elaboration, see Appx. C,
thus making it necessary to repeat the facts in this petition.
Petitioner's initial briefing to the Appellate Court, at *1 (June
18, 2020), in the interest of brevity, cited Doc. 19-1, at *6-31.
Attached to that initial request for a COA was a Rule 24(c) motion,
which the Circuit Clerk stated in response that "[w]e are taking no
action on this motion because it is unnecessary.
access to the original record."

The Court will have

Appx. E.

The plain language of Rule 24(c), illuminated by the Clerk's re­
sponse that the motion was "unnecessary", gave the Petitioner the
fair impression that his initial appellate briefing was sufficient.
Moreover, the Clerk's response made it appear unnecessary to repro­
duce the claims in the Granted July 06 Motion to Amend, as was deemed
persuasively acceptable in Bagwell, supra.
Inspection of the Original Record in this Cause reveals that
Doc. 1 (May 28, 2019) contains 21 Grounds stating "valid claim[s]"
of the denial of Petitioner's Sixth and Fourteenth Amendment right
to the effective assistance of trial and appellate counsel, and 1
Ground stating a valid (3 in 1) Fourteenth Amendment / False Testi­
mony claim.

See also Doc. 8 (June 12, 2019), Motion to Amend Claim

23 and supplement with 3 additional Fifth, Sixth and Fourteenth Amend­
ment claims of Double Jeopardy and Illegal Sentence / Void Judgement.
The District Judge Granted leave to file Doc. 8 (June 14, 2019).
The Respondant acknowledged only the initial 23 valid claims.
Doc. 12, at 1-4 (Aug. 12, 2019).

See

These acknowledged 23 valid claims

fully satisfy the first prong of Slack's threshold procedural inquiry.

10

In fact, the Petitioner actually exceeded Slack's first threshold
procedural requirement by filing Doc. 19 (May 21, 2020), which inclu­
ded briefing of 5 of the presented IATC claims and made a substantial
showing of the denial of his Sixth Amendment rights.

See Doc. 19-1,

at *6-31 (copy attached to the Rule 40 petition as Appx. D).
Doc. 19-1 fully briefed 5 claims establishing that trial counsel
was ineffective by

1) failing to request the lesser-offense of Third

Degree Assault Strangulation ... in the Count I Charge,

2) failing

to object to Count I being Jeopardy barred by Count II

3) failing

to object to the Count I Indictment being Illegally amended, off the
Record, without any Notice or the Required Motion For Leave To Amend,
4) failing to wage objections under Rules 602, 701 and 704(b), all­
owing the State to invade the province of jury with uniformed officer[]'s Illegal 3rd person hearsay/opinion testimony and State's em­
phasized speculation of Deft’s elemental culpabilities, and

5) fail­

ing to conduct reasonable investigations and present available miti­
gating evidence to negate the ADA's deceptive 'barn' or 'garage out
in the middle of nowhere' contentions, [] or further object to the
State's evidence being [State law] Factually Insufficient to reject
the Affirmative Defense of Voluntary Release in a Safe Place.
C. Opportunity To Qualify And Emphasize Standard Of Pro Se Leniency
Applicable
In
The
Context
Of
Habeas Corpus
Proceedings
By granting the pro se Petitioner a minimal degree of leniency in
this Cause, upon full inspection of the Original Record, and under a
de novo review of the pleadings, any reasonable jurist would find it
debatable that the Court erred in determining these pleadings failed
to state a valid claim of the denial of a constitutional right.
This preliminary issue presents the Court with an excellent opp11

ortunity to emphasize and qualify the directive of Haines v. Kerner,
404 U.S. 519 (1972)

in the habeas context, that pro se litigants are

not to be held to the same rigorous and stringent standards as the
pleadings of an attorney.

See United States v. Qazi, 975 F.3d 989,

992-93 & n.2 (9th Cir. 2020) (acknowledging that the rule of Haines is
considered "settled law", but that this Court "has not clearly artic­
ulated its purpose");

quoting Rory K. Schneider, Illiberal Construc­

tion of Pro Se Pleadings, 159 U.Pa.L.Rev. 585, 604 (2011).
2. The Court Of Appeals Has Sanctioned The District Court's
Departure From The Accepted And Usual Course Of Judicial
Proceedings By Refusing To Acknowledge Or Consider Material
Facts

And

Evidence

Weighing

In The

Petitioner's

Favor

This Court has repeatedly emphasized the threshold standard of
Slack, supra.

See Miller-El v. Cockrell, 537 U.S. 322, 336-38 (2003)

(At the C0A stage, the only question is the debatability of the iss­
ues or whether further proceedings might deserve the encouragement of
reasonable jurists);

See also Buck v. Davis, 137 S.Ct. 759, 773-74

(2017)(A preliminary showing that a claim is debatable does not re­
quire it be shown that the claim will ultimately succeed).
The Petitioner in this Cause was seeking tolling of the AEDPA 12month statute of limitations.

28 U.S.C. § 2244(d).

Generally, those

seeking to toll a statutory limitations period bear the burden of
proof in establishing their entitlement to relief.

See e.g., Wall v.

Kholi, 131 S.Ct. 1278, 1285 (2011)(holding that § 2244(d)(2) requires
an affirmative showing that "a judgement or claim" was reviewed "in a
proceeding outside of the direct review process");
v. Florida

See also Holland

560 U.S. 631, 649 (2010)(holding that equitable tolling,

while being a flexible remedy, requires affirmative evidence showing

12

reasonable "diligence" and "extraordinary circumstances").
a. Facts And Evidence Presented Below Fully Establish The
Debatability Of The District Court's Procedural Denial
Of
Statutory
Tolling
The evidence presented in the case at bar was a Memorandum Op­
inion of the Waco Tenth Court of Appeals, in which the Court expli­
citly authorized further "review" of their interlocutory Judgement,
outside of the direct review process.

See Appx. D, at 2:

"Notwithstanding that we are dismissing this appeal, Arnold
may file a motion for rehearing with this Court within 15
days after this opinion and judgement are rendered...
[and may] have the opinion and judgement of this Court re­
viewed by filing a petition for discretionary review...
with the Court of Criminal Appeals within 30 days after
either the day this Court's judgement is rendered or the
day

the last

timely motion for rehearing

is overruled by

this Court."

It is interesting to observe the great lengths the District Court
went through to avoid the appropriate phrase "other State collateral
review."

See Appx. B at *4 ("related appeal");

at *5 (only "dealt

with side issues relating to his potential habeas filing");

at *7

(or was an "other battle").
Moreover, there is no debate these subsequent review proceedings
were all "properly filed."

Artuz v. Bennett, 531 U.S. 4, 8 (2000).

Nor is it debatable that they all involved "the pertinent judgement
or claim."

See Appx. D at *1 (in re "Trial Court No. 2013-8-C2").

In the District Court, the Petitioner relied primarily upon the
holdings of Kholi and Duncan, supra,

See 533 U.S., at 174-75 (con-

templating the "universe of applications for collateral review", the
tolling provision was held "to include review of a state court judge13

merit that is not a criminal conviction”).
The pertinent evidence was presented and argued several times in
support of this contention.
•Doc.
•Doc.
•Doc.
•Doc.
•Doc.

See:

1, at *12 (05/28/2019)
7, at *1 with attached Exhibit 2 (06/12/2019)
16, at *3 (08/28/2019)
17, at *2 (01/06/2020)
19-1, at *5 (05/21/2020)

Yet, not once did the District Court acknowledge the evidence or
discuss the potential application of Duncan or Kholi.

The Court did,

while discussing equitable tolling, lightly touch on the subject by
stating the other State collateral review was ”not any actual chall­
enge of [the] conviction on the merits.” See Appx. B, at *5.

This

essentially adopted the Respondent’s assertion in their Answer with
Brief In Support.

See Doc. 12, at *11 (08/12/2019)(arguing that the

other collateral review was not ”a challenge to [the] conviction”).
These adverse contentions directly conflict with Kholi, supra,
where this Court flatly rejected the State of Rhode Island's undiff­
erentiated contention "that 'collateral review’ includes only 'legal'
challenges to a conviction or sentence[.]”

131 S.Ct., at 1283.

Also

rejected in Kholi was the contention that § 2244(d)(2) only applies
to claims cognizable "in a federal habeas petition." Id., at 1287.
It is important to note that both Rhode Island's and Texas' acute
interpretation of § 2244(d)(2) creates statutory surplusage, as such
a narrow reading of the statute renders meaningless any distinguishment between "State post-conviction" review
Duncan, "other State collateral review."

and, as construed in

533 U.S., at 175.

Such an

interpretation encroaches upon long-standing rules of statutory construction.

See Id., at 174

quoting Bacon's Abridgment, sect. 2, "a
14

statute ought, upon the who.le, to be so construed that, if it can be
prevented, no clause, sentence, or word shall be superfluous, void
or insignificant.”
Just as this Court was unwilling in Duncan to "render the word
'State* insignificant, if not wholly superfluous", ibid, it should be
equally unwilling to render the "or other collateral" clause wholly
superfluous in the case at bar.

The legislators clearly intended to

differentiate between 'State post-conviction review' and 'other State
collateral review.'
The Texas habeas statute, Tex.C.Crim.Proc. Art. 11.07, fits into
the former

while the disputed "review" in this Cause to the latter.

While Art. 11.07 itself contains no reference to either term > Sec. 3
does make several references to the phrase "after final conviction."
See also Art. 1.051(d)(distinguishing between "appellate and postcon­
viction habeas corpus matters").
Therefore, Duncan's "recognition of the diverse terminology that
different States employ", Id., at 177, provides strong guidance to
recognize that Texas specifically employs the term "post-conviction"
in the context of their habeas corpus proceedings.
While there may be legitimate dispute about how far to broaden
the scope of the 'other State collateral review' clause, the purpose
which the clause serves was well defined in Kholi:

to "potentially

obviat[e] the need for a litigant to resort to federal court";

an

expansive notion which includes "motions that do not challenge the
lawfulness of a judgement."

131 S.Ct., at 1288.

Indeed, the Fifth Circuit has itself already applied § 2244(d)(2)
to collateral review proceedings well beyond the District Court's
narrow interpretation below.

See e.g., Emerson v. Johnson, 243 F.3d

15

931

934-35 (5th Cir. 2001)(extending the statute so far as to inclu-

de the pendency of procedurally barred motions).
Notwithstanding the fact that State procedural rules explicitly
prohibit the filing of a motion for rehearing after the denial of an
Art. 11.07 habeas petition, the tolling provision was held to apply
’’during the period in which a Texas habeas petitioner has filed such
a motion." Id., citing Tex.R.App.P. 79.2(d)("A motion for rehearing
. .. may not be filed").
Likewise, a post-conviction DNA motion under Art. 64.01, C.C.P.,
which most closely approximates a discovery motion, provides only an
indirect means of waging an Effective challenge to a conviction.

See

Hutson v. Quarterman, 508 F.3d 236, 240 (5th Cir. 2007)(holding the
pendency of post-conviction DNA motion statutorily tolled);

But see

Ex parte Baker, 185 SW 3d 894, 895 (TCCA 2006)(Texas' DNA "statute
does not say that a favorable finding will have any effect on the
conviction");

see also Ex parte Tuley, 109 SW 3d 388, 391 (TCCA

2002)("Chapter 64 provides for forensic DNA testing but does not
provide a vehicle for obtaining relief if testing reveals affirma­
tive evidence of innocence"), emphasis added.
As stated in Appx. D, at *2, the disputed proceedings in this
Cause stemmed from an "interlocutory appeal", outside of the direct
review process, in which the appellate Court explicitly authorized
"rehearing ... to have the opinion and judgement of this Court re­
viewed ... review ... rehearing[ . ]"
While it is true that this other State collateral "review" did
not wage a direct challenge to the conviction on the merits

a very

strong argument, which will be reserved in the instant petition,
proves that it was a means of waging an EFFECTIVE challenge to the

16

conviction;

which gave it a distinct potential to obviate the need

for federal review, thus fulfilling Kholi's central concern.
The ignored evidence and Kholi's reasoning fully establish the
debatability of the District Court's procedural ruling and support
the issuance of a COA in this Cause.

See Miller-El, supra, 537 U.S.,

at 340 ("the issuance of a COA can be supported by any evidence").
The lower courts were held in Miller-El to have committed clear
error in denying a COA because "the District Court did not give full
consideration to the substantial evidence the petitioner put forth in
support of the prima facie case." Id., at 347.
Likewise, in Buck, supra

it was observed that "[t]he Fifth Cir-

cuit , for its part, failed even to mention the ... evidence" presen­
ted in support of finding that the District Court's procedural ruling was debatable.

137 S.Ct., at 778.

Such is also the case with both Courts below in this Cause, as a
single reference to the evidence is conspiculously absent from the
Opinions.

See Appx. A - C [Evidence presented at Appx. of initial

COA brief, and argued at *7-8 (06/18/2020);

also see Appx. of Rule

40 Motion, and argued at *5-6 (04/05/2021)].
b. Facts And Evidence Presented Below Fully Establish The
Debatability Of The District Court's Procedural Denial
Equitable
Tolling
Of
The District Court's Opinion below contained an unprecidented im­
plicit holding, namely, that a "protective" federal habeas petition
was required in order to prove diligence,

See Appx. B, at *7 (entan-

gling the pro se Petitioner's requests for statutory tolling with
those for equitable tolling, the Court stated that the "Petitioner's
claims for equitable relief make it clear that he understood the
17

correct way to obtain statutory tolling");

of. Id., at *5 (implying

the proper course was "to file a protective petition in this court"
... which itself assumes the Court would have granted permission to
pursue the above 'other State collateral review', and completely
supports the grant of statutory tolling in this scenario).
Not only is the District Court's rigid per se holding the type
which this Court had admonished in Holland, supra, 560 U.S., at 649,
it is unprecidented in light of Pace v. DiGuglielmo, 544 U.S. 408
(2005).

This Court's discussion in Pace about the theoretical filing

of a "protective" federal habeas petition, Id., at 416, was strictly
confined to the issue of statutory tolling under § 2244(d)(2), and
had nothing to do with the question of diligence or whether equitable
tolling was appropriate in a particular circumstance.

The Court's

"equitable" discussion did not commence until the following section.
See Id., at 418.
This is a fundamental misapplication of equitable principles, and
identical to Holland, "the district court erroneously relied on a
lack of diligence" to deny equitable tolling.

560 U.S., at 653.

The District Court in this Cause was only able to arrive at such
a conclusion by mechanically glossing over all of the factual circum­
stances and evidence weighing in the Petitioner's favor,

A brief in-

spection of the logic employed to support its holding, See Appx. B,
at *7, reveals that the Court believed an affirmative finding of dil­
igence was also precluded by the fact that the Petitioner:
"was the person responsible for filing the motions in the
state trial court ... [and] sought to pursue a different
course of action, that course failed, and now he cannot be
heard to complain that the choice ... took too long and
prevented him from timely filing in this Court."

18

"When told by the court that he was seeking that relief
too early, he appealed the decision" ... all of which was
simply "a circumstance of his own creation."
Throughout the course of the District Court's Opinion, not one
single reference is made to the Waco Court of Appeals' Memorandum
Opinion, or its misleading nature which repeatedly misled the Peti­
tioner to seek "rehearing ... to have the opinion and judgement of
this Court reviewed ... review ... rehearing." Appx. D, at *2;

Mem.

Op., Arnold v. State, 2018 WL 1004880 (Tex.App.- Waco, Feb.21, 2018).
The above reference to being ’.'told by the court" pertains to the
assigned Sr. District Judge, after whose Feb. 05 Order a notice of
appeal was filed on Feb. 14 pursuant to applicable State Rule.
Post-factum perusal of this issue, and the highly debatable facts
and circumstances leading up to it, reveal that no other pro se liti­
gant persuing identical relief in the State courts had been instruc­
ted to seek "rehearing" or further "review" of the denial or dismiss­
al of their interlocutory claims.

See Lara v. State, 2018 Tex.App.

LEXIS 7200 (Tex.App.- Houston [1st Dist.] Aug. 30, 2018);

Nottingham

v. State, 2020 Tex.App. LEXIS 2832 (Tex.App.- Amarillo, Mar. 31, 2020
);

Vasquez v. State, 2018 Tex.App. LEXIS 7704 (Tex.App.- Eastland,

Sept. 20, 2018);

Smith v. State, 2017 Tex.App. LEXIS 5206 (Tex.App.-

Austin, June 08, 2017);

Braley v. State, 2015 Tex.App. LEXIS 12470

(Tex.App.- Texarkana, Dec. 10, 2015);

Kossie v. State, 2015 Tex.App.

LEXIS 2455 (Tex.App.- Houston [14th Dist.] Mar. 17, 2015);
In re Blake

2016 Tex.App. LEXIS 2603 (Tex.App.- Waco

See also

Mar.20, 2016).

These distinguishing cases, which were presented in the Rule 40
petition for panel rehearing, all support an affirmative finding that
the Petitioner was misled by the Waco Court of Appeals to seek fur­
ther "review" which no other litigant was misled into pursuing.
19

Absent the Waco Court of Appeals misleading inducement, the Peti­
tioner would Never have filed a motion for rehearing or a petition
for discretionary review with the TCCA

which in turn would have left

over 5 months of AEDPA tolling (Feb. 21 - Aug. 01, 2018).

The Record

reflects Petitioner's initial protective State habeas application was
filed on Apr. 24

2018, and that the § 2254 petition was executed on

May 22, 2019 (one week after exhausting State "remedies").
Because the Fifth Circuit generally requires that a plaintiff
provide evidence of being "actively misled" to prove extraordinary
circumstances and justify the application of equitable tolling
e.g.

See

Coleman v. Johnson, 184 F.3d 398, 402 (5th Cir. 1999), both of

the courts below committed clear error in failing to consider the
evidence put forth to prove the Petitioner was in fact misled to
pursue the controverted other State collateral review in this Cause.
b(l). Essential Context Establishing Diligence Overlooked
By
The
District
And
Circuit
Courts
In Holland, supra, a case which was strictly limited to the issue
of equitable tolling, the lower courts were held to have erred by not
considering the various pro se efforts (i.e., numerous letters, etc.)
which demonstrated "reasonable diligence." 560 U.S., at 252-53, citations omitted.

v

Interestingly, the Holland Court could have simply held, as the
District Court in the case at bar, that Holland was not diligent
enough because he should have known to "file a protective petition in
th[e federal district] court."

Appx. B, at 5.

But as Holland and

Pace both make clear, that is not the standard of equity.
Completely overlooked by the Courts below were all of the facts
establishing that the incarcerated Petitioner:
20

1) made repeated requests, beginning in September of 2017

for the

disclosure of material evidence in the State's possession and
indigent habeas counsel (illusory Rights In Name Only) to help
facilitate the proper presentation of the withheld evidence;
2) filed a "protective" State habeas application, and a subsequent
motion to Stay, with over three months of AEDPA tolling remaining;
3) was cited to no rule, law or State court precident in support of
denying his motion to stay the protective State habeas filing
(while precident does exist supporting the Grant of a Stay);
4) relied upon a fair belief the motion to stay would be granted;
5) had his motion to stay ignored

while the post-dismissal Emergency

motion to Stay was not ruled upon and denied until August 10, 2018
-- nine days post-expiration of the AEDPA filing deadline;
6) could not possibly have, predicted the necessity of filing a "pro­
tective" federal habeas petition until it was already too late
(even if filed on the same day as denial of the Emergency motion);
7) while simultaneously litigating the above "other State collateral
review", which he was misled into pursuing, was diligently working
to re-type and re-submit his extensive State habeas application,
which he was not permitted to file until after the mandate issued
in the other State collateral review;
8) received no official notice of the second State habeas application
being denied (evidence attached to the initial § 2254 filing

see

Doc. 1, at *4, 15 & Ex. 1), and only learned of the denial through
communication with his family a month later;

after which he

9) immediately sent a motion for reconsideration the next day;

and

10) executed his federal habeas petition seven days after the motion
for reconsideration was dismissed by the TCCA.
21

Upon recognition of the numerous efforts extending well beyond
reasonable diligence, along with the inherently misleading nature of
the unacknowledged evidence, and the District Court's rigid per se
holding that equitable tolling required the filing of a protective
federal habeas petition, it is not difficult for reasonable jurists
to debate and conclude that the courts below committed clear error by
not granting a COA in this Cause.
3. Texas' Refusal To Correct Their Structurally Deficient
Scheme In The Wake Of Trevino Is A Compounding Problem
Which Greatly Affects Indigent Prisoners And Justifies
Further Corrective Measures Be Taken By This Court
This Court recognized in Martinez, supra, that certain inequita­
ble circumstances, such as where indigent prisoners seek to vindicate
complex claims which typically require expansion of the trial record,
"may justify an exception to the constitutional rule that there is no
right to counsel in collateral proceedings." 566 U.S., at 9.
In lieu of addressing that constitutional question, however, the
Court opted to carve out a "narrow exception" to the procedural de­
fault rule.

Id.;

See 28 U.S.C. § 2254(b)(1)(A)(barring the grant of

federal habeas relief to any claim not exhausted in State courts).
The issue in Martinez was labeled "an equitable matter", and the
exception was tailored in a manner which "permits a state to elect
between appointing counsel in initial-review collateral proceedings
or not asserting a procedural default and raising a defense on the
merits in federal habeas proceedings." 566 U.S., at 13-16.
The Martinez exception was later held to apply to Texas' method
of attenuating such claims.

See Trevino, supra, 569 U.S., at 425-26

(perceiving "significant unfairness" in the Texas procedural scheme).

22

Although using correlative phraseology, the holdings in Martinez
and Trevino (specifically pertaining to the necessity of expanding
the trial record) ostensibly constitute a finding that extra-ordinary
"circumstances exist that render [the State's] process ineffective to
protect the rights of the applicant."

§ 2254(b)(1)(B)(ii).

It is axiomatic that the Martinez/Trevino exception implicates
values beyond the concerns of deficiently performing trial counsel.
See e.g., Strickland v. Washington, 466 U.S. 668, 692 (1984)(intima­
ting that "various kinds of state interference with counsel's assis­
tance [sic] is legally presumed to result in prejudice");

See also

United States v. Bagley, 473 U.S. 667, 679-82 & n.8-13 (1985)(the
"materiality" standard is rooted in claims of perjured testimony,
suppressed evidence and ineffective assistance of trial counsel).
The instant case presents significant facts which this Court may
deem appropriate to further hold that, where the Martinez/Trevino
exception applies,

a) extra-ordinary circumstances decisively exist

which per se satisfy the second prong in an equitable tolling in­
quiry, and/or

b) there is no justification to distinguish between

the affirmative defenses delineated in 28 fol. § 2254, Rule 5(b).
a) The Trevino Exception Per Se Justifies The Grant Of Equitable
Tolling For Indigents Who Demonstrate Reasonable Diligence
The basic underlying premise of this issue appears to speak for
itself

and this pro se litigant does not wish to ramble on endlessly

citing the myriad examples which justify such an equitable holding.
As formerly mentioned

two Texas Bills passed in the wake of Trevino

regarding post-conviction discovery and indigent habeas counsel, both
of which appear to be illusory and misleading rights in name only.
Regarding any supposed "right" to post-conviction discovery, per23

haps a good starting point would be for Texas to get their pre-trial
issues properly resolved first.

See e.g., Hillman v. Neuces Cty.,

Tex. and Neuces Cty. DA's Office, 579 SW 3d 354 (Tex. 2019)(Assistant
DA fired for ethically "refusing to withhold exculpatory evidence").
As far as the "right" to indigent habeas counsel goes, beyond the
pro se litigants that are continuing to be misled by the plain in
pari materia language of the applicable statute[s], see generally,
supra, at *19, citing distinguishing interlocutory State cases, the
issue was well summarized by In re Garcia, 486 SW 3d 565 (TCCA 2016),
d.op., Alcala, J., joined by Johnson, J.,
("Texas already spends enough money[.]")
It appears to be a more cost effective means of ensuring the pro­
tection of an indigent defendant's most fundamental rights, not for
the State to fairly adjudicate actual constitutional violations, but,
rather, to train "better-qualified attorneys ... at the front end of
the;process[.]" Id., at 566-67, Cone.op., Keller, P.J., joined by
Keasler and Hervey, JJ.
This inverted logic succinctly demonstrates why prisoners being
illegally restrained in the Lone Star ("Hook 'em") State are in dire
need of this Honorable Court's equitable intervention.
Accordingly, this Court should hold the equitable Trevino excep­
tion justifies invoking § 2254(b)(1)(B)(ii) in Texas, and that these
extraordinary circumstances per se satisfy the second prong of Pace,
supra, for indigents who demonstrate reasonable diligence.
b. This Court Should Hold Trevino To Not Distinguish Between
The Affirmative Defenses Delineated In The Rules Governing
Section 2254 Cases In The United States District Courts

24

With regard to the observation in Martinez, supra, about prison­
ers being "in no position to develop the evidentiary basis for [the
complex claims rooted in the materiality standard], which often turn
on evidence outside the trial record", 566 U.S., at 12, the pro se
Petitioner in this Cause filed numerous claims in the State habeas
proceedings involving "Ineffective Assistance of Trial Counsel ...
Suppression of Material Evidence and Materially False/Misleading Tes­
timony ... False Testimony ... False Evidence", the majority of which
required evidentiary development.
Several attempts were made to counter the State's Dec. 04, 2018
Answer that "No evidentiary hearing is needed or warranted" and that
"the vast majority of these claims would have been cognizable on app­
eal, and are not proper in a habeas application."

See e.g., (12/17/

2018)(Objection To State's Answer, Page 2: "All Defaulted Claims Have
Been Raised As IAC");

(01/08/2019)(Proposed Designation Of Issues:

enumerating IAC claims);

(01/25/2019)(Motion For Continuance, Page

1: "The Court's instant ODI ... inequitably Favors the state's, de­
fense and appellate counsel's interests - ensuring the vast majority
of the outlined Ineffective Assistance of Counsel and related Funda­
mental claims ... will Not be addressed");

(03/06/2019)(Motion To

Remand, Page 1: "The habeas court has ... refused to acknowledge the
Vast majority of plainly outlined [IAC] claims");

(05/06/2019)(Mo-

tion For Reconsideration: "The Habeas Court's Findings of Fact Are
Not Supported By The Record ... intentionally used False testimony
... unadjudicated IAC claims").
Within the above State court pleadings were several requests for
indigent habeas counsel, undisclosed evidence, and an evidentiary
hearing to supplement the incomplete Record with material impeachment

25

evidence and testimony,

However, once the State's Answer was filed

on Dec. 04, 2018, the substance of every pro se document was blatant­
ly ignored by the State courts.
It is simply disgraceful for a State to even attempt to assert
any form of affirmative defense on a Record such as this.
28 fol. § 2254, Rule 5(b) runs directly parallel to the exhaust­
ion statute, § 2254(b)(1)(A)

and provides a means for states to ass-

ert various affirmative defenses and avoid answering the merits of
any asserted claims.
state remedies

Such defenses include any "failure to exhaust

a procedural bar ... or a statute of limitations."

This Court's holding in Trevino provedes an exception to a pro se
petitioner's failure to exhaust state remedies which involve complex
claims typically requiring development of the trial record,

Based

upon the State habeas record in the case at bar, the State of Texas
must be held to have electively disentitled themselves to any form of
affirmative defense in federal habeas proceedings.
CONCLUSION
For the forgoing reasons, the petition for a writ of certiorari
should be granted.
spectffirisly Submitted,

*
r\
Jaybarren Arnold
Beto Unit #2061090
1391 FM 3328
Tenn.Col. Tx. 75800

26

